No. 19-1194
IN THE SUPREME COURT OF THE UNITED STATES
JIAHAO KUANG, ET AL., PETITIONERS
v.
DEPARTMENT OF DEFENSE, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 19th day of March, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 7,329 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on March 19, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
March 19, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

19-1194
KUANG, JIAHAO, ET AL.
DEPT. OF DEFENSE, ET AL.

IAN HEATH GERSHENGORN
JENNER & BLOCK
1099 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-639-6869
IGERSHENGORN@JENNER.COM
MELISSA ARBUS SHERRY
LATHAM & WATKINS LLP
555 11TH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-2200
MELISSA.SHERRY@LW.COM

